Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Medicare Coverage of Non-Physician
       Practitioner Services




                        June 2001
                      OEI-02-00-00290
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public.
The inspection reports provide findings and recommendations on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI's New York Regional Office prepared this report under the direction of John I. Molnar,
Regional Inspector General and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                              HEADQUARTERS

Nancy Harrison, Project Leader              Jennifer Antico, Program Specialist
Natasha Besch                               Tricia Davis, Program Specialist
Vincent Greiber                             Brian Ritchie, Technical Support Staff
Christi Macrina



   To obtain copies of this report, please call the New York Regional Office at 212-264-2000.
         Reports are also available on the World Wide Web at our home pate address:

                                  http://www.hhs.gov/oig/oei
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Medicare Coverage of Non-Physician
       Practitioner Services




                        June 2001
                      OEI-02-00-00290
                          EXECUTIVE SUMMARY

PURPOSE

          To describe the scope of services nurse practitioners, clinical nurse specialists, and
          physician assistants provide to Medicare beneficiaries, and to identify any potential
          vulnerabilities that may have emerged since the Balanced Budget Act of 1997.

BACKGROUND

          Nurse practitioners, clinical nurse specialists, and physician assistants are health care
          providers who practice either in collaboration with or under the supervision of a
          physician. We refer to them as non-physician practitioners. States are responsible for
          licensing and for setting the scopes of practice for all three specialties. Services provided
          by them can be reimbursed by Medicare Part B.

          The Balanced Budget Act of 1997 (BBA97) modified the way the Medicare program
          pays for their services. Prior to January 1, 1998, their services were reimbursed by
          Medicare only in rural areas and certain health care settings. Payments are now allowed
          in all geographic areas and health care settings permitted under State licensing laws.
          Furthermore, nurse practitioners and clinical nurse specialists are now allowed to bill
          Medicare directly. The services of a physician assistant, however, must continue to be
          billed by an employer.

          Our study is based on: a review of the State scopes of practice; an analysis of Medicare
          billing data from the years 1997, 1998, and 1999; and information obtained from
          Medicare Part B carrier medical directors.

          Because this inspection’s intent is to be a first look at the effect of the new coverage rules
          under BBA97, the findings are descriptive in nature. The inspection presents what the
          billing data show. It also describes the State scopes of practice that are used to control
          billing. It is not the purpose of this inspection to evaluate the benefits or disadvantages
          of non-physician practitioner services.

FINDINGS

Non-Physician Practitioner Billings Are Rising Rapidly

          It appears that the Balanced Budget Act of 1997 is having a substantial effect on non-
          physician practitioner billing. In 1999, Medicare paid for 5.2 million services, compared
          to 1.2 million services in 1997. Because some of these services had been billed as
          “incident to” prior to 1997, we were unable to determine how much of the increase in


                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services    i                             OEI-02-00-00290
          billings was due to real growth in services and how much was due to simple changes in
          billing practices. The top services billed were for office or outpatient visits in office
          settings.

State Scopes of Practice Provide Little Guidance to Carriers

          Our analysis found that the State scopes of practice are broad and as a result provide little
          guidance that carriers can use to process claims. Most scopes of practice contain only a
          general statement about the responsibilities, education requirements, and a non-specific
          list of allowed duties and do not explicitly identify services that are complex or beyond
          their scope. Carriers voice concerns over non-physician practitioners performing
          services such as surgery and endoscopies. Furthermore, when a service is not addressed
          in a scope, it cannot be assumed that a non-physician practitioner cannot provide that
          service. Scopes, as well as Medicare, call for collaboration with a physician. This may
          have the effect of either limiting or expanding the services that are allowed. If a nurse
          practitioner is directed by a cardiologist to make a complex diagnosis, there is nothing in
          the scopes preventing such a practice. In fact, States generally have a vague definition
          for acts such as diagnosis.

Carrier Monitoring of Non-Physician Practitioner Claims is Limited

          Although all but one Medicare carrier acknowledges that non-physician practitioners are
          included in post-payment reviews, most carriers confirm that no pre-payment edits exist
          to monitor their claims. Several carriers state that monitoring is limited by the broad
          language in their scope of practice. Sixteen carriers do not verify that the non-physician
          practitioners are working within their scope, and at least 22 carriers do not check the
          collaborative or supervisory agreements. Most information given to carriers from HCFA
          include basic Balanced Budget Act language, and directives to treat non-physician
          practitioners as a physician when monitoring their claims.


CONCLUSION

          The Balanced Budget Act successfully opened up the medical practice to non-physician
          practitioners, regardless of care settings. Non-physician practitioner billings are rising
          rapidly, but controls, which are based on scopes of practice, are limited. State scopes of
          practice are vague and broad. As such, carriers do not have sufficient guidance to
          distinguish which non-physician practitioner services should be reimbursed by the
          program and which should not. This creates potential vulnerabilities, both from payment
          and quality of care standpoints. Therefore it may be appropriate to consider other
          additional controls for Medicare payments to non-physician practitioners. We plan to
          monitor non-physician practitioner services for both overall trends and for complex
          services.




                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services    ii                            OEI-02-00-00290
Agency Comments

          We received comments on the draft report from the Health Care Financing
          Administration. They concur with our conclusion regarding vulnerabilities when non-
          physician practitioners bill Medicare. They are, however, sensitive to increasing the
          monitoring burden on contractors. The HCFA expressed a willingness to work with the
          OIG to monitor vulnerabilities in non-physician practitioner billings. We plan to do
          additional work to identify specific vulnerabilities by examining the billing practices of
          non-physician practitioners.

          The full text of HCFA’s comments are contained in Appendix F.




                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services   iii                          OEI-02-00-00290
                           TABLE OF CONTENTS

                                                                                                                       PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Non-Physician Practitioner Billings Rising                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Scopes of Practice Provide Little Guidance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Carrier Monitoring is Limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES


          A. Services and Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          B. Most Frequent Settings and Services, 1999                  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          C. States’ Recognition of Non-Physician Practitioners . . . . . . . . . . . . . . . . . . . . . . 19


          D. Prescriptive Authority . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


          E. Review Criteria for State Scope of Practice . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


          F. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22





Medicare Coverage of Non-Physician Practitioner Services                                                       OEI-02-00-00290
                                     INTRODUCTION

PURPOSE

          To describe the scope of services nurse practitioners, clinical nurse specialists, and
          physician assistants provide to Medicare beneficiaries, and to identify any potential
          vulnerabilities that may have emerged since the Balanced Budget Act of 1997.

BACKGROUND

          Nurse practitioners, clinical nurse specialists, and physician assistants are health care
          providers who practice either in collaboration with or under the supervision of a
          physician. States are responsible for licensing and for setting the scopes of practice for
          all three specialties. Nurse practitioners and clinical nurse specialists are licensed
          advanced practice registered nurses who have specialty training in primary care or acute
          care of patients. Both of these nurse specialties must practice in collaboration with a
          physician. In contrast, a physician assistant is a licensed health care professional who
          practices under the supervision of an immediately available physician responsible for
          delegating medical services to the physician assistant. All States limit the number of
          physician assistants a physician is allowed to supervise. Although there are other types
          of non-physician practitioners, such as clinical nurse midwives and nurse anesthetists, for
          the purposes of this inspection we will refer to nurse practitioners, clinical nurse
          specialists, and physician assistants collectively as “non-physician practitioners.”

Medicare Payment

          Medicare provides health insurance to people who are 65 years and older, people who are
          disabled, and, people with permanent kidney failure. Medicare consists of two primary
          parts: Hospital Insurance, also known as Part A, and Supplementary Medical Insurance,
          also known as Part B. Medicare Part A provides coverage of institutional care such as
          inpatient hospital care, skilled nursing facility care, home health services, and hospice
          care. Medicare Part B pays for the cost of non-institutional care such as physician
          services, outpatient hospital services, medical equipment and supplies, as well as services
          provided by non-physician practitioners. Medicare uses entities called contractors to
          process claims. Fiscal intermediaries process Part A claims and carriers process Part B
          claims. Each Medicare Part B carrier must employ a medical director whose duties
          include: assisting in the review of claims; providing clinical judgment in medical review
          of claims; directing carrier personnel on the correct application of policy during claim
          adjudication; and providing advice to the Health Care Financing Administration (HCFA)
          on national coverage and payment policy.



                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services    1                            OEI-02-00-00290
          To be reimbursed by Medicare, the non-physician practitioner must practice in
          accordance with State law. This law is embodied in the State nurse practice acts, which
          are also known as the State scopes of practice. The scope of practice typically defines
          the practitioner’s practice, qualifications, board representation, and fee/ renewal
          schedule. The scopes may also list specific examples of responsibilities such as taking
          histories, patient care, education and training.

The Balanced Budget Act of 1997

          Allowed Expanded Billing. The Balanced Budget Act of 1997 modified the way the
          Medicare program pays for non-physician practitioner services. Prior to January 1, 1998,
          these services were reimbursed by Medicare Part B only in certain geographical areas
          and health care settings. Nurse practitioner and clinical nurse specialist services were
          covered when provided in collaboration with a physician in nursing facilities in urban
          areas and in all settings in rural areas. They could also bill Medicare directly for services
          provided in rural areas. Physician assistant services were covered when provided under
          the supervision of a physician in hospitals and nursing facilities, as an assistant to
          surgery, in physician offices and patient homes in rural areas, and in a rural area
          designated as a health professional shortage area.

          The Act also removed the restrictions on settings. Effective January 1998, payment is
          now allowed for non-physician practitioner services in all geographic areas and health
          care settings permitted under State licensing laws, but only if no facility or other provider
          charges are paid in connection with the service. Nurse practitioners and clinical nurse
          specialists are now allowed to bill directly in all settings in both rural and urban areas.
          The services of a physician assistant, however, must continue to be billed through an
          employer.

          Clarified Education/Certification. The 1997 legislation clarifies the educational and/or
          certification requirements for certain non-physician practitioners to receive Medicare
          reimbursement. The regulations spell out the requirements as follows:

          Nurse practitioners must:
                         • be a registered professional nurse;
                         • be authorized to perform services in the State where they practice;
                         •	 be certified by the American Nurses Credentialing Center (ANCC) or
                             comparable certifying agency; and
                         • hold a Master’s degree in Nursing, as of January 1, 2003.

          Clinical nurse specialists must:
                         • be a registered nurse;
                         • be licensed in the State where they practice;
                         • be certified by the ANCC; and



                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services    2                             OEI-02-00-00290
                              •	 hold a Master’s degree in a defined clinical area of nursing from an
                                 accredited educational institution.

          Physician assistants must:
                         • be licensed and authorized in the State where they practice and
                         • 	 either have graduated from an accredited educational program, or
                             passed the National Certification Examination.

          Modified Reimbursement. The Act also set new reimbursement levels. It allows
          payment of 80 percent of the lesser of either (1) the actual charge or (2) 85 percent of the
          scheduled physician fee. Prior to the Act payment for nurse practitioner or clinical nurse
          specialist services, when furnished in all settings in a rural area, could have been made
          either directly to the nurse practitioner or clinical nurse specialist, or to the employer or
          contractor of the nurse practitioner or clinical nurse specialist at 75 percent of the
          physician fee schedule for services furnished in a hospital, 85 percent of the physician fee
          schedule for services furnished in other settings, and at 65 percent for assistant at surgery
          services. Payment for nurse practitioner services when furnished in skilled nursing
          facilities and nursing facilities in an urban area was made to the employer of the nurse
          practitioner at 85 percent of the physician fee schedule. Before the Act, payment for
          physician assistant services was made to the employer at 85 percent of the scheduled
          physician fee and at 65 percent of physician fee schedule for assistant to surgery services.

          Because the Act removed the restrictions on settings, interest has increased in the
          services non-physician practitioners are providing. The General Accounting Office’s
          January 2000 report, Lessons Learned From HCFA’s Implementation of Changes to
          Benefits, recommended that HCFA implement a recommendation made by an internal
          HCFA group that studied potential vulnerabilities brought about by the Act’s changes.
          This group suggested that HCFA (1) survey the States to establish a national database of
          allowable practices for possible use in forming policies, (2) work with national
          accreditation bodies to establish standard minimum scopes of practice, and (3) that
          HCFA conduct a baseline study to determine the volume and type of services billed by
          clinical nurse specialists and nurse practitioners. At the present time, HCFA’s Program
          Safeguard Contractor is conducting a baseline study in three States to determine the
          volume and type of services clinical nurse specialists and nurse practitioners are
          providing.

          The American Medical Association (AMA) is also interested in non-physician
          practitioner services. The AMA is leading a coalition of medical organizations that is
          concerned HCFA is not ensuring that advanced practice nurses are working in
          collaboration with a physician and within their scope of practice.

          Incident to services. The Act did not affect any services provided incident to physicians
          services. Incident to services are provided by employees of the physician under the
          physician’s direct on-site supervision. Incident to services may be provided by nurse


                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services    3                               OEI-02-00-00290
          practitioners, clinical nurse specialists, physician assistants, medical assistants,
          technicians, nurses, and others employed by the physician. These services continue to be
          paid at 100 percent of the physician fee schedule amount as though the physician
          personally performed the services. The physician does not have to indicate on the claim
          that a non-physician practitioner performed the service. This inspection did not set out to
          examine incident to services. It focuses on services that the non-physician practitioner
          bills directly and services that are billed, as is always the case for physician assistants,
          through the employer with the non-physician practitioner specialty indicated. Carriers
          have complained that incident to services are difficult to track.


SCOPE

          This inspection is intended to be a first look at the effect of the Balanced Budget Act of
          1997 which enables non-physician practitioners to bill Medicare for all allowable
          services in all settings. The findings of this inspection are descriptive in nature.

          The inspection presents what the billing data show about the services provided to
          Medicare beneficiaries. It also describes the States’ scopes of practice that govern these
          practitioners. Any agreements between the physician and the practitioner, however, are
          not the focus of this inspection. These agreements are unique to each physician and
          practitioner. In order to effectively evaluate these agreements as a control mechanism,
          they would have to be reviewed on a case by case basis. That level of scrutiny was
          beyond the scope of this inspection. It is also not the purpose of this inspection to
          evaluate the benefits or disadvantages of services performed by non-physician
          practitioners.


METHODOLOGY

          Data were collected from three sources: the State scope of practice; Medicare billing data
          from the years 1997, 1998, and 1999; and interviews with carrier medical directors.

          Scopes of practice. We collected scopes of practice for physician assistants in 50 States
          and Washington, D.C., and both the advanced practice scope and the registered nursing
          scope for clinical nurse specialists and nurse practitioners in 50 States. First, we
          reviewed a sample of State scopes to determine common characteristics of
          responsibilities. From these common characteristics we developed a review document
          for all scopes. This document included educational requirements, written collaborative
          agreements, Board oversight, physician supervision, a statement of scope, and particular
          services such as taking histories, diagnosis, therapy, and treatment/ care plan
          development. We reviewed each scope of practice and noted the services allowed in each
          State for each specialty. We also reviewed the requirements for both the supervisory and


                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services    4                            OEI-02-00-00290
          collaborative agreements between the physician and the non-physician practitioner as
          well as the prescriptive authority addressed in each State’s scope of practice. See
          Appendix E for more details.

          Billing Data. We analyzed Medicare Part B services data for each of the three
          specialties from the Medicare Part B Extract and Summary System (BESS) for 1997,
          1998, and 1999. All service and charge data mentioned in this report reflect data for
          “allowed services” and “allowed charges.” We also examined settings and procedure
          codes. We concentrated on billing changes that have occurred since BBA97 and
          analyzed procedures with high increases in allowed services and/ or allowed charges.
          We also looked at procedures considered vulnerable by carrier medical directors.

          Medical Director Practices. We interviewed the 41 carrier medical directors from all
          the Medicare Part B carrier contractors. Our interviews focused on the process of
          reviewing non-physician practitioner claims and any changes in that process since
          BBA97. We asked about carrier screens and edits, use of State scopes of practice, and
          any concerns or potential vulnerabilities. The carriers also forwarded any of their non-
          physician practitioner medical review policies and any instructions sent to them by
          HCFA.

          This inspection was conducted in accordance with the Quality Standards for
          Inspections issued by the President’s Council on Integrity and Efficiency.




                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services    5                           OEI-02-00-00290
                                               FINDINGS

Non-Physician Practitioner Billings Are Rising Rapidly
          It appears that the Balanced Budget Act is having a substantial effect on non-physician
          practitioner billings to the Medicare program. In 1999, BESS data show that Medicare
          paid for 5.2 million non-physician practitioner services (See Chart 1). This is a fourfold
          increase since 1997, the year BBA97 expanded settings and allowed nurse practitioners
          and clinical nurse specialists to bill Medicare directly in additional settings. During this
          same period, allowed charges also increased nearly fourfold from $55 million to $202
          million (See Appendix A). Because some of these services had been billed as “incident
          to” prior to 1997, we were unable to determine how much of the increase in billings was
          due to real growth in services and how much was due to simple changes in billing
          practices.

                                  Chart 1: Non-Physician Practitioner
                                     Allowed Services (in millions)




                                                                Source: Medicare BESS data


          In 1999, non-physician practitioners billed about half of their services in an office setting
          and another quarter of services were billed from skilled nursing or nursing facilities. The
          top three services billed in 1999 were office or outpatient visit for the evaluation and
          management of an established patient, subsequent nursing facility care for the evaluation
          and management of the new or established patient (25 minutes), and subsequent nursing
          facility care for the evaluation and management of the new or established patient (15



                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services    6                                OEI-02-00-00290
          minutes), comprising almost a third of all services billed. See Appendix B for more
          details on billing data.

          Although clinical nurse specialists have shown the greatest proportional increases in
          services, nurse practitioners and physician assistants account for most of the overall
          services in 1999 (See Chart 2).


                                      Chart 2: Allowed Services 1999




                                                                                  Source: Medicare
                                                                                  BESS data




State Scopes of Practice Provide Little Guidance to Carriers
          Our analysis found that the State scopes of practice are broad and as a result provide little
          guidance that carriers can use to process claims. Scopes, as well as Medicare, call for
          collaboration with a physician which may have the effect of either limiting or expanding
          the services that non-physician practitioners may perform.

          Generally, State Nursing Boards set the scope of practice for clinical nurse specialists and
          nurse practitioners, while State Medical Boards set the physician assistant scope. Some
          States also defer to a national certifying body’s scope, such as that of the American
          Nurses Credentialing Center, which similarly lacks detail (see Appendix C).
          Characteristics of the scopes are critical because they control what non-physician
          practitioners can do in their State and thus what Medicare will reimburse. It is important
          to note that scopes were designed to implement medical practice and not to direct
          Medicare reimbursement.

                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services    7                            OEI-02-00-00290
          Most scopes contain a statement about the responsibilities, a list of allowed duties,
          education requirements, supervisory/collaborative agreement requirements, and
          prescriptive authority. The scopes differ in the amount of detail given to each element.
          Additionally, with the exception of few physician assistant scopes, we found that no
          scope explicitly identifies services that these practitioners are not allowed to perform.
          Using just the scopes, it is difficult to determine if non-physician practitioner could
          provide highly complex services and be reimbursed by the Medicare program. Several
          carrier medical directors note that relying on the scopes to determine services that can be
          billed to the program may be problematic. One medical director comments that the
          scopes are “so vast and vague. [Non-physician practitioners] can do anything that is
          assigned to them.” A few medical directors suggest that more clarifications of duties are
          needed to improve the way their claims are reviewed.

          Also, non-physician practitioners may provide services if they are delegated by the
          collaborating or supervising physician (as mentioned, the nurse practitioner and the
          clinical nurse specialist must collaborate with a physician, and a physician assistant must
          be supervised by a physician). For example, if a nurse practitioner working in
          collaboration with a cardiologist is directed to make a complex diagnosis, there is nothing
          in the scopes of practice preventing such a practice. In fact, States generally have a
          vague definition for acts such as diagnosis.

          Scopes in 11 States provide guidance for an agreement between the clinical nurse
          specialist and/or the nurse practitioner and the collaborating physician. In some cases the
          guidance for the collaborative agreements merely contains a definition of collaboration.
          More State scopes provide requirements of what the physician’s supervisory role is in
          relation to a physician assistant. For example, some physician assistant scopes may
          require a supervisory agreement to provide specific information about the availability of
          the supervising physician, type of supervision required (physical, electronic, or
          continuous), or whether the agreement must be in writing. However, in the case of either
          the collaborative or the supervisory agreement, details that are not addressed within the
          State scope are left to the discretion of the physician and the non-physician practitioner.

Scopes do not fully describe non-physician practitioner responsibilities

          The scopes typically contain a broad statement of responsibilities. In these statements,
          25 States allow nurse practitioners to provide health care according to their own area of
          specialization; and in 19 States, physician’s assistants may provide health care as
          approved by State Nursing Board. In addition to the broad statement, State scopes
          usually give a general list of duties allowed to be performed which most often include the
          following: treatment/care plan development; diagnosis; assessments; dispensing
          medication; counseling; referrals; and education/teaching.




                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services    8                            OEI-02-00-00290
                              Table 1: Selected Non-physician Practitioner Responsibilities

                                                           Number of State Scopes Allowing Specific
                  Responsibilities                                         Service
                                                           Clinical Nurse      Nurse       Physician
                                                             Specialist     Practitioner   Assistant
                                                              (N=44*)         (N=50)        (N=50)
                  Treatment plan development                     36             37            19
                  and implementation
                  Diagnosis                                      26             35            15
                  Assessment/history/exam                        33             37            26
                  Dispensing medication                          24             20            18
                  Counseling                                     24             31            16
                  Referrals                                      14             26            12
                 Education/teaching                              28             29            15
                *44 States recognize CNSs.

          Within the list of duties, scopes offer few specific guidelines. For example, diagnosis is
          allowed by many States, but few States define what diagnosis actually means or entails.
          Also, in the States where the scope is silent, such as the 19 States that do not address
          counseling by nurse practitioners, it cannot be assumed that the practitioner cannot
          perform these services. Even when a service is addressed, it is done in a very general
          manner. One State defines a treatment plan as “[The nurse practitioner] coordinates the
          health care plans to enhance the quality of health care and diminish both fragmentation
          and duplication of service.” Another State defines education/teaching as “develop
          individualized teaching plans with the client based on overt and covert health needs.”
          Other examples of services allowed but not fully outlined are counseling, referrals, and
          emergency expansion of role.

          State scopes generally have a clear definition of the education requirements for non-
          physician practitioners. Although BBA97 currently requires only clinical nurse
          specialists to have a Master’s degree to receive reimbursement, most States’ education
          requirements stipulate that both the clinical nurse specialist and the nurse practitioner
          must have a graduate degree. There appears to be a difference between Federal and State
          requirements in that 11 States do not require clinical nurse specialists to have a master’s
          degree whereas Federal reimbursement requirements described in 42 CFR §410.74-76
          do. The remainder of the States do not stipulate whether a Master’s degree is required.


                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services     9                               OEI-02-00-00290
          As of January 1, 2003, nurse practitioners will also be required to have a Master’s degree
          for Part B reimbursement. Physician assistants are not required to have a degree for Part
          B reimbursement.

          Every State addresses the prescriptive authority for at least one specialty. Forty-eight
          States provide guidance for the prescriptive authority of physician assistants and 41
          States do so for nurse practitioners. However, only 23 of the 44 States that recognize
          clinical nurse specialists provide any guidance for prescriptive authority in their scopes.
          See Appendix D for details of prescriptive authority.

Some practices raise concerns

          Thirty-seven carrier medical directors cite at least one concern about non-physician
          practitioner services and/or payments. Common concerns include settings, procedures,
          and training and supervision.

          Settings. Our analysis of 1999 billing data indicates that 81 percent of all non-physician
          practitioner services were performed in three settings: offices, inpatient hospitals, and
          skilled nursing facilities/nursing facilities. Twenty-five carrier medical directors cite
          nursing facilities and skilled nursing facilities as problematic settings. Most think that
          these settings are problematic for at least one of the following reasons: medically
          unnecessary procedures performed; excessive billing; and lack of oversight. As one
          carrier medical director notes, “There’s not a lot of oversight in nursing homes and there
          is a great potential for abuse where there is not much oversight.” The carrier medical
          directors also discuss concerns about home health, hospitals, rural clinics, and both
          inpatient and outpatient mental health facilities, and give similar reasons for these
          concerns.

          Procedures. Nineteen carrier medical directors cite specific procedures that are
          problematic. Of these, most mention evaluation and management codes. Fifty-eight
          percent of all non-physician practitioner allowed services are for evaluation and
          management codes, and 8 of the top 10 procedures in 1999 are evaluation and
          management codes. Evaluation and management services and charges have increased by
          four times their 1997 levels. Several carrier medical directors express that it is
          problematic for non-physician practitioners to bill evaluation and management codes,
          especially those of a complex nature. Our data show that most evaluation and
          management services provided by them are of low-complexity. However, in 1999, eight
          percent of non-physician practitioner evaluation and management services were of high
          complexity. In order to merit high complexity, two of three key components (history,
          examination, or medical decision making) must meet the following criteria: the number
          of diagnoses or medical options must be extensive; the amount and/or complexity of the
          data to be reviewed must be extensive; and the risk of complications and/or morbidity or
          mortality must be high.



                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services   10                             OEI-02-00-00290
          Within evaluation and management codes, complex consultations is one area of particular
          concern. A consultation is a type of service provided by a physician whose opinion or
          advice regarding evaluation and/or management of a specific problem is requested by
          another physician or other appropriate source. Other procedures that carriers find
          problematic due to their complexity are surgery, psychiatry, endoscopies, colonoscopies,
          and sigmoidoscopies.

          Training and Supervision. Eleven carrier medical directors express concerns about
          non-physician practitioners’ lack of training. Some carrier medical directors believe that
          too many complex procedures are being performed by these practitioners. One medical
          director recalls fighting efforts to allow complex procedures performed by non-physician
          practitioners, believing that some procedures are too close to physician work and are
          more complex than their training allows.

          Five carrier medical directors note that the lack of supervision of non-physician
          practitioners could be problematic. One mentions that their “background and education
          is not parallel with physicians; they were originally created as physician extenders but
          now they are operating independently.” Another worries that the non-physician
          practitioners’ ability to practice independently could exacerbate medical problems.
          Three carrier medical directors express concerns that the practitioners and their
          collaborating physician(s) share too many responsibilities. One of these directors adds
          that he can’t address his concerns because there are no guidelines for non-physician
          practitioners.

Carrier Monitoring of Non-Physician Practitioner Claims is
Limited
          Carrier medical directors may monitor non-physician practitioner claims through pre-
          payment or post-payment reviews. Pre-payment reviews are automated edits in the
          claims payment system that occur before the claim is paid, and either involve requesting
          additional documentation or denying the claim outright. When asked if any specific pre-
          payment screens or edits exist for non-physician practitioners, 30 of the 41 carrier
          medical directors confirm that no edits exist specifically to monitor these claims. Some
          of the specific edits include surgery, assistant at surgery, anesthesia, nursing home
          procedures, and particular evaluation and management codes. One carrier plans to
          implement edits that will disallow complex-level services provided by non-physician
          practitioners. This carrier is awaiting feedback from HCFA about these edits.

          All carriers but one include non-physician practitioners in their post-payment reviews.
          These are conducted manually after the claim is paid, and are triggered by such things as
          aberrant billing or outliers. One type of post-payment review is a comprehensive medical
          review, which looks at one specific provider’s billing over a period of time. In the last 2
          years, 11 carrier medical directors report conducting comprehensive medical reviews on
          non-physician practitioners. In one example, nurse practitioners were visiting nursing

                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services   11                           OEI-02-00-00290
          homes and changing patients’ bandages but billing for debridement, a surgery code which
          is both more complex and more expensive. Another carrier medical director reports
          conducting three comprehensive medical reviews. All three involved nurse practitioners,
          and resulted in overpayments totaling over $900,000. The cases involved duplicate
          billings, upcoded claims, and self-referrals.

          Several medical directors mention that monitoring is limited by the broad language in
          their scopes of practice. Because the scopes offer little detail, carrier medical directors
          may not use them. One medical director says, “Unfortunately, in [this State] it is
          impossible for [non-physician practitioners] not to be within their scope of practice.
          There is no way we can deny [the claim] based on the scope of practice.” Sixteen carrier
          medical directors state that they do not verify that non-physician practitioners are
          performing services within their State scope of practice in pre-pay or post-pay activities.
          Only seven carrier medical directors check with the State nursing board or the scope of
          practice to verify services. At least 22 carriers do not check the collaborative or
          supervisory agreement. Additionally, the carriers acknowledge that they do not have
          specific settings or procedures which prompt them to refer to the agreements
          consistently.

          Carrier medical directors report receiving memoranda or other guidelines from HCFA
          regarding non-physician practitioner claims when the 1997 legislation went into effect.
          Some report receiving the BBA97 guidelines. Others report receiving information from
          the carrier manual or program memoranda, and some say they were told to treat non-
          physician practitioners like medical doctors. Six carrier medical directors report
          receiving no instructions from HCFA regarding these claims. Most carriers say they
          have not changed the way they review claims as a result of the Act. Some carriers,
          however, say they now pay more attention to non-physician practitioner claims.

          In addition to the general guidance given by HCFA, a few carriers have implemented
          their own medical review policies affecting non-physician practitioners. One example is
          a policy that offers specific instructions for the amount of supervision needed for
          myocardial perfusion imaging, a diagnostic procedure that is performed in order to
          evaluate how well blood is flowing to the heart.

          Moreover, some carrier medical directors would like to have additional pre-payment
          review or edits. Examples of the desired edits include specific evaluation and
          management codes, incident to services, and setting-specific edits. Some carrier medical
          directors would also like to have additional post-payment reviews, including level-
          specific reviews, specialty-specific reviews, psychiatric service reviews, and spot checks
          of collaborative agreements. Other medical directors suggest modifying State laws or
          having further clarification of non-physician practitioner duties as a means of improving
          the way these claims are reviewed.

          Some carrier medical directors state that although they want to monitor more closely,
          they are limited in their ability to do so. Five carrier medical directors mention the need
                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services   12                            OEI-02-00-00290
          for national guidelines on how to use the scopes to review claims. One carrier explains,
          “We’d like some instructions- to have a list from HCFA on codes that are inappropriate.”
          Another carrier medical director comments that the carrier is hindered: “[We] can’t
          develop every claim—[we] have no way of monitoring if they overstep their
          bounds—our hands are tied.”




                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services   13                         OEI-02-00-00290
          We are able to draw several conclusions based on our analysis. We can conclude that the
                                         CONCLUSION

          The Balanced Budget Act successfully opened up Medicare billing for non-physician
          practitioners, regardless of care settings. Non-physician practitioner billings are rising
          rapidly, but controls, which are based on scopes of practice, are limited. State scopes of
          practice are vague and broad. As such, carriers do not have sufficient guidance to
          distinguish which non-physician practitioner services should be reimbursed by the
          program and which should not. This creates potential vulnerabilities, both from payment
          and quality of care standpoints. Therefore it may be appropriate to consider other
          additional controls for Medicare payments to non-physician practitioners. Until such
          controls are developed, the situation deserves careful monitoring. We plan to do so for
          both overall trends and for complex services.



Agency Comments

          We received comments on the draft report from the Health Care Financing
          Administration. They concur with our conclusion regarding vulnerabilities when non-
          physician practitioners bill Medicare. They are, however, sensitive to increasing the
          monitoring burden on contractors. The HCFA expressed a willingness to work with the
          OIG to monitor vulnerabilities in non-physician practitioner billings. We plan to do
          additional work to identify specific vulnerabilities by examining the billing practices of
          non-physician practitioners.

          The full text of HCFA’s comments are contained in Appendix F.




                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services   14                            OEI-02-00-00290
                                                                                           APPENDIX A



Services and Costs 1999, by Category

                         Nurse Practitioner          Clinical Nurse   Physician Assistant     All Non-Physician
                                                       Specialist                                Practitioners
                        Services     Charges     Services   Charges   Services   Charges     Services       Charges

         Anesthesia      137           $14,397      3        $151     159     $21,963            299          $36,511
     Integumentary     50049        $1,623,825   7093    $262,846   62408 $2,683,342          119550       $4,570,013
   Musculoskeletal     10905          $732,838    706     $88,378   92646 $12,734,886         104257      $13,556,102
        Respiratory      595           $53,750     19      $2,941    7169    $844,971           7783         $901,662
    Cardiovascular      3455          $430,214    272     $49,364 123066 $21,424,366          126793      $21,903,944
          Lymphatic       14            $1,176     19      $2,088     586     $37,393            619          $40,657
       Mediastinum        27            $4,328      0          $0     364     $39,925            391          $44,253
  Digestive System      1655          $151,939    319     $32,412   11497 $1,050,466           13471       $1,234,817
            Urinary     6274          $365,168    226     $14,399    2256    $163,322           8756         $542,889
       Male Genital       69            $9,033      2        $391     667    $110,433            738         $119,857
Laparoscopy (Elim)       435           $62,401     81      $8,206    4179    $393,070           4695         $463,677
    Female Genital      2358          $126,500    149      $6,328    1497    $120,566           4004         $253,394
           Maternity      62            $7,503      0          $0       9      $3,170             71          $10,673
 Endocrine/ Nerves      2349          $209,462    233     $28,343   23473 $2,426,799           26055       $2,664,604
                Eye       73            $4,116      0          $0     693     $91,044            766          $95,160
                Ear    11229          $325,073     47      $1,428    8369    $246,676          19645         $573,177
          Radiology    36872        $1,174,244    583     $31,287   48730 $1,245,475           86185       $2,451,006
    Pathology/ Lab 249021           $1,935,797   2002     $12,602 136528   $1,118,289         387551       $3,066,688
           Medicine 361401          $9,906,512 103358 $6,115,443 121261    $2,455,480         586020      $18,477,435
Evaluation & Mgmt 1855424          $73,999,925 67433 $3,622,695 1103259 $46,597,602          3026116     $124,220,222
              Temp 437430           $4,210,872   5302     $74,871 228974   $2,635,335         671706       $6,921,078
                     3029834       $95,349,073 187847 $10,354,173 1977790 $96,444,573        5195471     $202,147,819
Total
These categories are in order of their Current Procedural Terminology (CPT) number
Source: Medicare BESS data




                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services     15                                         OEI-02-00-00290
                                                                           APPENDIX B

                         Most Frequent Settings and Services, 1999

                                    1. Most Frequent Settings, 1999

                                    Health Care Setting              Number of
                                                                      Services
                           Office                                     2,598,999
                           Skilled Nursing Facility (SNF)               757,564
                           Nursing Facility (NF)                        433,169
                           Inpatient Hospital                           414,285
                           Other - unlisted facility                    316,571
                           ER - hospital                                241,995
                           Outpatient Hospital                          199,994
                           Home                                          85,837
                           Custodial Care                                49,616
                           Community Mental Health                       35,234
                           Center
                                  Proportion of all Services 98.8%
                              Source: Medicare BESS Data, 1999




                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services   16                     OEI-02-00-00290
                                                                                           APPENDIX B
                                                                                             (cont.)

                                    2. Most Frequent Services, 1999

    CPT                                      Service Description                               Number        Percent
    Code                                                                                          of         of total
                                                                                               Services


    99213      Office or outpatient visit for the evaluation and management of an               645,979         12.4%
               established patient which requires at least two of these components:
               C        an expanded problem focused history;
               C        an expanded problem focused examination;
               C        medical decision making of low complexity.

               The presenting problem(s) are of low to moderate severity. Physicians
               typically spend 15 minutes face-to-face with the patient and/or family

    99312      Subsequent nursing facility care, per day, for the evaluation and                508,954          9.8%
               management of the new or established patient, which requires at least two
               of these components:
               C        an expanded problem focused interval history;
               C        an expanded problem focused examination;
               C        medical decision making of moderate complexity.

               Usually, the patient is stable, recovering or improving. Physicians typically
               spend 25 minutes as the bedside and on the patient’s facility floor or unit.

    99311      Subsequent nursing facility care, per day, for the evaluation and                420,926          8.1%
               management of the new or established patient, which requires at least two
               of these components:
               C        a problem focused interval history;
               C        a problem focused examination;
               C        medical decision making that is straightforward or of low
                        complexity.

               Usually, the patient is stable, recovering or improving. Physicians typically
               spend 15 minutes as the bedside and on the patient’s facility floor or unit.

    99212      Office or outpatient visit for the evaluation and management of an               353,654          6.8%
               established patient which requires at least two of these components:
               C        a problem focused history;
               C        a problem focused examination;
               C        straightforward medical decision making

               The presenting problem(s) are of low to moderate severity. Physicians
               typically spend 15 minutes face-to-face with the patient and/or family

    G0001      Routine venipuncture for collection of specimen(s).                              206,094          4.0%




                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services   17                                             OEI-02-00-00290
    CPT                                      Service Description                               Number        Percent
    Code                                                                                          of         of total
                                                                                               Services


    99214      Office or outpatient visit for the evaluation and management of an               148,671          2.9%
               established patient which requires at least two of these components:
               C        a detailed history;
               C        a detailed examination;
               C        medical decision making of moderate complexity.

               The presenting problem(s) are of low to moderate severity. Physicians
               typically spend 15 minutes face-to-face with the patient and/or family

    99313      Subsequent nursing facility care, per day, for the evaluation and                100,231          2.0%
               management of the new or established patient, which requires at least two
               of these components:
               C        a detailed interval history;
               C        a detailed examination;
               C        medical decision making of moderate to high complexity.

               Usually, the patient is stable, recovering or improving. Physicians typically
               spend 35 minutes as the bedside and on the patient’s facility floor or unit.

    99283      Emergency department visit for the evaluation and management of a                 98,636          1.9%
               patient, which requires these components:
               C         an expanded problem focused history;
               C         an expanded problem focused examination; and
               C         medical decision making of moderate complexity.
               Usually, the presenting problem(s) are of moderate severity.

    90862      Pharmacologic management, including prescription, use, and review of              94,969          1.8%
               medication with no more than minimal medical psychotherapy.

    99231      Subsequent hospital care, per day, for the evaluation and management              79,738          1.5%
               of a patient, which requires at least three of the following components:
               C         a problem focused interval history;
               C         a problem focused examination;
               C         medical decision making that is straightforward or of low
                         complexity.
               Usually, the patient is stable, recovering or improving. Physicians typically
               spend 15 minutes at the bedside and on the patient’s hospital floor or unit.

              Total                                                                     2,657,852        51.2%
          Source: Current Procedural Technology 1999, Standard Edition and Medicare’s National Level II Codes--
          HCPCS 1997, American Medical Association




                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services    18                                            OEI-02-00-00290
                                                                                                      APPENDIX C
 States’ Recognition of Non-Physician Practitioners
 State        NP         CNS        PA                                 State       NP         CNS        PA

 AL       T          T          T                                      MT      T          T          T

 AK       N, T       V          T                                      NE      T          T          T

 AZ       T          T          T                                      NV      T          T          T

 AR       T          T          T                                      NH      T          V          T

 CA       T          T          T                                      NJ      T          T          T

 CO       T          T          T                                      NM      T          T          T

 CT       T          T          T                                      NY      T          MH         T

 DE       T          T          T                                      NC      T          T          T

 DC       NR         NR         T                                      ND      T          T          T

 FL       T          V          T                                      OH      T          T          T

 GA       T          MH         T                                      OK      T          T          T

 HA       T          T          T                                      OR      T          D          T

 ID       T          T          T                                      PA      T          T          T

 IL       T          T          T                                      RI      T          MH         T

 IN       T          T          T                                      SC      N, T       N, T       T

 IA       T          T          T                                      SD      T          T          T

 KS       T          T          T                                      TN      i          i          T

 KY       N, T       N, T       T                                      TX      T          T          T

 LA       T          T          T                                      UT      N, T       N, T       T

 ME       T          T          T                                      VT      T          MH , N     T

 MD       T          T          T                                      VA      T          T          T

 MA       T          V          T                                      WA      T          V          T

 MI       N, T       V          T                                      WV      T          T          T

 MN       T          T          T                                      WI      T          T          T

 MS       T          T          V                                      WY      T          T          T

 MO       N, T       N, T       T

T- Recognized to practice in State

NR- Not Recognized

MH- Mental health clinical nurse specialists only.

i - Not board certified. Recognizes only RNs. However, NP may obtain a certificate of fitness to prescribe drugs. 

N- Defers to national certifying body.

D - Drafting Scope

V - Non-respondent 



                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services      19                                               OEI-02-00-00290
                                                                                           APPENDIX D




                                            Prescriptive Authority

                                                                    Number of States allowing service
            Prescriptive Authority                         Clinical Nurse       Nurse      Physicia
                                                             Specialist       Practition      n
                                                              (N = 44)            er       Assistan
                                                                              (N = 50)        t
                                                                                           (N = 50)
          Medical devices                                           4            11          16
          Legend drugs                                              9            18          17
          Starter dosages/samples                               12               19          15
          Schedule I *                                              0             2           2
          Schedule II*                                              5            14          14
          Schedule III*                                             8            20          26
          Schedule IV*                                              9            20          26
          Schedule V*                                               8            20          26
          * Controlled substances
          Source: State Scopes of Practice


The prescriptive authority usually contains specific information about dispensing
samples, prescribing prescriptive or legend drugs (the legend of the prescription
must contain the dosage amount and the frequency with which to take the drug),
controlled substances (any narcotic or barbiturate drug ranging from simple cough
medicine to heroin), and medical devices.




                                                       )))))))))))
Medicare Coverage of Non-Physician Practitioner Services       20                                 OEI-02-00-00290
                                                                  APPENDIX E



                Review Criteria for State Scope of Practice

In reviewing the State scopes of practice, our review instrument focused on the
following responsibilities:

      C	    Assessments, histories, and physical exams, including screening and
            interpretation of lab data;
      C	    Therapy, including physical, occupational, and respiratory, as well as
            therapeutic diets and therapeutic interventions; we did not review drug
            therapy;
      C     Treatment plan/ care plan development, including formulating,
            implementing, reviewing, and evaluating plans;
      C     Patient care and management, including hospital rounds, accessing
            catheters and tubes, and care of sprains and fractures;
      C     Surgery, including first assistant, minor surgery and suturing;
      C     Supervision;
      C     Education and teaching;
      C     Counseling;
      C     Emergency services, including EMT;
      C     Expansion of scope in the event of an emergency;
      C     Collaboration with Physician/ Supervision of non-physician
            practitioner, and;
      C     Other relevant services such as anesthesia, diagnostic problems, and
            subspecialization in fields like optometry or obstetrics.




                                        21

                  APPENDIX F

Agency Comments




      22

